In The
SUPREME COURT OF THE UNITED STATES

LEE CHARLES EARDFORD # 325479
Petitioner

VS.

KENNETH ROMANOWSKI
Respondent.

i

On Petition for Writ of Habeas Corpus

PETITIONER FOR WRIT OF HABEAS CORPUS 28 U.S.C. 2241(b)

6y:
RECEIVED
JAN - 6 2021
_SUPlREMEFCOjnR^LMFg!<

SZSV79

Ates/u &)Pr. fa a h /v
fi.

m/jsuijAc Mr- Wet,?-.

PETITION APPENDIX INDEX

App A In re Bradford, 2020 US App LEXIS 23764

A-pgs

App B District Court order Staying Proceedings

B1-B5

App C Amended Habeas Petition

C1-C28

App D Respondent's Answer

Dl-Dl

App E Order Denying Habeas Relief

El-E

App F Rule 60(d) Motion/Brief

F1-F37

1-6;

A1-A2

TABLE OF CONTENTS
Questions Presented

i

Parities to the Proceedings

ii

Table of Authorities

iii

Petition for A Writ of Habeas Corpus

iv

Petition for A Writ of Certiorari ..

v

Opinion Below

v

Statement of Jurisdiction

v

Constitutional and Statutory Provision Involved

v

Cause for Appellate Court's Jurisdiction and use of Discretionary
Powers ............................................................................. ..........................

vii

Statement of Reasons for not filing in the District Court • • ix
Statement of the Case

1

Reasons for Granting the Petition

1

Argument I

THE DISTRICT ABDICATED ITS CLEAR LEGAL DUTY TO EXERCISE ANCILLARY
JURISDICTION OVER CLAIMS OF FRAUD ON THE COURT/ ABUSED IIS
DISCRETION BY RECHARACTERIZING PETITIONER’S RULE 60(d) MOTION AS
A SUCCESSIVE HABEAS PETITION WITHOUT AN EVIDENTIARY HEARING AND
EFFECTIVELY SUSPENDED THE WRIT OF HABEAS CORPUS CONTRARY TO US
CONST ART 1, Sec 1/ Sec 9 cl 2
4
Applicable
Law
................................
Authority
to Exercise Jurisdiction
A Claim Asserted Pursuant to Fed. R. Civ. P. 60(d)
Constitution
Successive Petition
.........................

Argument II

does

THE REVERBERATING EFFECT OF THE GOVERNMENT'S FRAUD ON THE STATE
COURT REGARDING THE LACK OF DNA EVIDENCE CONSTITUTE FRAUD AGAINST
THE HABEAS COURT WHERE THE STATE'S LACK OF DNA EVIDENCE CLAIM WAS
ADVANCED TO THE DISTRICT COURT AND RELIED ON, IN PART, TO DENY
HABEAS
RELIEF
8
Independent
Action
Various federal district and Court of Appeals do not treat
Rule 60 fraud claims as successive habeas petitions

Relief

Requested

Verification

4
5
not
6

8
8
12
12

QUESTIONS PRESENTED
I.

DID THE DISTRICT COURT ABDICATE ITS CLEAR LEGAL DUTY TO EXERCISE ANCILLARY
JURISDICTION OVER CLAIMS OF FRAUD ON THE COURT, ABUSE ITS DISCRETION BY
RECHARACTERIZING PETITIONER'S RULE 60(d) MOTION AS A SUCCESSIVE HABEAS
PETITION WITHOUT AN EVIDENTIARY HEARING, AND EFFECTIVELY SUSPENDED THE WRIT
OF HABEAS CORPUS CONTRARY TO US CONST AM ART 1, SEC 9, C12.

II.

DOES THE REVERBERATING EFFECT OF THE GOVERNMENT' S FRAUD ON THE STATE COURT
REGARDING THE LACK OF DNA EVIDENCE CONSTITUTE FRAUD AGAINST THE HABEAS
COURT WHERE THE STATE'S LACK OF DNA EVIDENCE CLAIM WAS ADVANCED TO THE
DISTRICT COURT AND RELIED ON, IN PART, TO DENY HABEAS RELIEF?

i

'1

PARTIES TO THE PROCEEDINGS

All parties appear in the caption of the case on the cover page.

TABLE OF AUTHORITIES
Ashcrof v Iqbal# 556 US 662, 678 (2009)...............................
8
Brady v Maryland. 373 US 83 (1963)........................................
iv, 2, 11, 12
Burke v United States, 2005 US Dist LEXIS 25908.................
6
Burton v Zwicker & Assocs# 978 F Supp 2d 759 (ED KY 2013)
5
Charter Two, of Muskegon v City of Muskegon, 303 F3d 755/ (6th Cir. 2002)
4
Cresswell v Sullivan & Cromwell, 922 F2d 60, 70 (2d Cir. 1990) • • •
5
Felksr v Turpin, 518 US 651 (1996).................................................
Harrington v Richter, 562 US 86 (2011).........................................
Hazel-Atlas Glass Co. v Hartford Empire, 322 US 238 (1944)....
In
In
In
In

re
re
re
re

3
5, 6, 8

Baugh, 2018 US App LEXIS 35384 (6th Cir 2018)...................
Bradford, 2020 US App LEXIS 23764 (6th Cir 2020).............
Davis, 557 US 925 (2009).........................................................
Marion, 2018 US App LEXIS 27570 (6t’n Cir 2018).................

2
6
2, 12
1, 6, 10
Lacks Indus v McKechnie Vehicle Components USA, 407 F Supp2d 834 (ED Mich 2005) 5
Marshall v Holmes, 141 US 589 (1891)..................
3
Miller El v Cockrell, 537 US 322 (2003).............
Pacific RR of Missouri v Missouri Pacific Ry Co • / 111 US 505 (1884)
Quackenbush v Allstate Ins Co, 517 US 706 (1996)....
Schluo v Delo, 513 US 298 (1995)...................................
United States v Throckmorton, 98 US 61 (1878)...........
Walker v True, 399 F3d 315 (6th Cir 2005)..................
Workman v Bell, 227 F3d 331 (6th Cir 2000).................
Zakrzewski v MCDonough, 490 F3d 1264 (11th Cir 2007)
Constitutional Amendments, Court Rules, Statutes
US Const Am, Art 1, Sec 9, cl 2
Fed. R. Civ. P. 8........................
Fed. R. Civ. P. 9........................
Fed. R. Civ. P. 60......................
28 U.S.C. 2241.............................

iii

10
2, 4
5
3
8
9
4, 8, 9
10

7, 11
1, 4
1
1
iv, 7, 12

PETITION FOR A WRIT OF HABEAS CORPUS
Petitioner Lee Charles Bradford/ prisoner # 325479 is a white male confined
at the Alger Correctional Facility in Munising Michigan. Petitioner is a dual
citizen of the United States

and

State of Michigan. Petitioner respectfully

submits that he is being unlawfully detained in violation of Brady v Maryland#
373 US 83

(1963),

and

the

Fourteenth

Amendment pursuant to judgments of

conviction and sentence entered in the Hillsdale County Circuit Court, Case No
01-259131-FH. The

relevant facts are attached hereto in Appendix A - In re

Bradford, 2020 US App LEXIS 23764. Appendix AFetitioner discovered new evidence confirming the existence of DNA evidence
from the ski-mask allegedly worn by the perpetrator in
state

agents

denying

the

existence

of

such

DNA

2016, after years of
evidence. Petitioner

unsuccessfully sought relief in the state courts, and then filed an Rule 60(d)
motion for relief from judgment based on fraud on the Habeas Court. The district
court opined that it lacked jurisdiction and transferred the matter to the Sixth
Circuit

for

authorization to file a successive habeas

petition. The

Sixth

Circuit Ordered Petitioner to file a proper motion seeking authorization to file
a successive habeas petition and declined to grant the requested relief.
Petitioner has no other remedy at law and the fraud complained of in the US
district court prevented Petitioner from developing a factual basis to support
his claim and prevented the Writ of Habeas Corpus from serving its function as a
guard against extreme malfunctions in the state court process. Petitioner now
seeks habeas corpus

relief

in this Court pursuant to Felker v Turpin, 518

U.S. 651, 660-62 (1996), 28 U.S.C §2241(b),(c)(3), In re Davis, 557 U.S. 925
(2009).

iv

OPINIONS BELOW
The final order of the United States Court of Appeal was entered on July
27, 2020, see In re Bradford, 19-2099,

2020 US App LEXIS 23764 (6th Cir.). The

final order of the United States District Court transferring Petitioner's Rule
60 (d) motion to the Sixth Circuit for authorization to file a successive habeas
corpus petition xras entered September 23, 2019, see Bradford v Romanowski, Case
No. 2:05-CV-72889;

STATEMENT OF JURISDICTION
The United States Court of Appeals for the Sixth Circuit issued its final
order on July 27, 2020, after changing the original nature of Petitioner's Fed
R. Civ P, Rule 60(d) motion alleging fraud on the habeas Court to a motion for
authorization to file a successive habeas petition, thus, this Honorable Court
has jurisdiction under 28 U.S.C. 1254(1).

CONSTITUTIONAL AMENDMENT AND COURT RULE INVOLVED
Fed. R. Civ. P 60(d) provides:
"(d) Other Powers to Grant Relief. This rule does not limit a Court's power
to:
(1)

entertain an independent action to relieve a party from a judgment,
order, or proceeding;

(2)

grant relief under 28 U.S.C. §1665 to a
personally notified of the actions; or

v

defendant who was not

(3)

set aside a judgment for fraud on the Court."

US Const Art I, §9/

Cl2 provides:

"The privilege of the writ of habeas corpus shall not be suspended, unless
when in cases of Rebellion or Invasion the public Safety may require it."
US Const Am 14, Sec 1 Provides:
"All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the law."

vi

Cause for Court's Appellate Jurisdiction and use of Discretionary Powers
This case has extraordinary false facts in itself, and cannot be compared
to other case law outright. One of the main problems is the lower courts are
having a hard time believing the out right lie presented at trial of no DNA, and
how it was falsely

reported of being destroyed to the appellate and habeas

courts in this case by he state attorneys afterwards.
This lie was used and built from the very

beginning by the state, to

convict the Petitioner and these false facts together have mislead lower courts
for years now leading to a miscarriage of justice • • • Which there is two clearly
separate lies presented, one in the state court, and the other to the District
Court. As of today the state still maintains there is no DNA in the mask, as
Exhibit F Laboratory Report pg 3 clearly states it is stored in the lab and
available for use, proving the truth of the Petitioner's claims.
I am asking the aid of this court to use its jurisdiction and Discretionary
Power to straighten the record, and Grant Habeas Relief ordering the District
Court to rule on the rightfully filed 60-d motion Exhibit F, or grant what ever
remedy is appropriate at this time.
What makes this so exceptional is how the prosecution used the lie to his
advantage, and built the case around it. First by, presenting it to the jurors
in closing arguments,and then getting the motion to have the mask thrown out
denied based on false facts of no DNA. Then finally presenting a new lie stating
in writing, "all evidence was destroyed in this case!" misleading the whole
COOOU^c.

appeal process covliKp up the first lie, and preventing the truth to come out
once again.
Briefly, at trial in closing arguments the prosecutor stated to the jurors
the defendant was making up lies about physical evidence referring to the DNA
and

calling

the

Petitioner

a Hebrew
vii

Goat,

Exhibit

E,

pg

10

of

13

(T.T.) transcript quote. Thus, lessening the moral

weight

of Mr. Bradford's

testimony to the jury. Not only was that a lie to them and the court, but by
withholding misrepresenting the DNA evidence we could not impeach Sgt Kanouse
lead detective or Neal Brady the prosecutor at trial,

presenting expert

testimony, and the exculpatory DNA evidence itself to all parties.
Then during Petitioner's Direct Habeas Petition, Hon. Judge Battani stayed
the process over discrepancies in DNA reporting

at

trial. She returned the

Petitioner to the lower court for DNA testing in 2007. At which time the state
responded to this order that all evidence was destroyed Exhibit F last
page. Continuing to cover up the lies nad trying to bury the truth to the courts
and defense, which they did at the time.
The state's

attorneys

have

suspended

the

writ

of habeas corpus by

perpetrating a fraud upon the court. Consequently, the writ of habeas corpus
could not serve its intended function.

viii

Statement of Reasons for not filing in the District Court, etc.
The reason for filing in this court is Petitioner has exhausted his lower
court remedies and all options. See attached orders denying the 60-d motion and
the reluctantly filed Successive Petition which was denied also. Exhibits
(A)-(A2).
Difficulty is high trying to present the truth with such lies and
misrepresented facts by the state actors. It took sixteen years to get actual
proof that the DNA existed, and that was from an outside source other than the
state prosecutor. My argument is presented in black and white, as all the false
facts

come from state actor's own words and documents they themselves have

presented. This is no dream or something made up as suggested by the state!
I would ask this court for any help or order that is within the law. A
remedy or rightful

hearing

to

present theses facts and hold state actors

responsible for their lies, and get a fair trial.

ix

STATEMENT OF THE CASE
Petitioner comes to this Honorable Court seeking relief
States District Court
complained of here,

judgment

from

a United

that was begotten by fraud. The fraud being

(i.e, the government's suppression of favorable evidence),

originated in the trial court and was continued in the United States District
Court on habeas review.
The government's misrepresentation concerning the absence of DNA evidence
to turn over to the defense was relied on by the trial prosecutor during closing
arguments and coveyed to the United States District Court on habeas review.
This

appeal

recharacterization

derives from the United

States

district

court's

unjust

of Petitioners Fed. R Civ P 60(d) motion as a successive

habeas petition. Unfortunalety, Petitioner was forced to seek authorization to
file a successive habeas petition in the Sixth Circuit.
It is Petitioners position that his fraud on the court claim should not
have been transferred. Petitioner pled sufficient facts alleging actual fraud
against

the

district

R. Civ. P8(a). See

App

court
F.

in

The

his

60(d)

district

motion

as

required

court failed to give

by

Fed

appropriate

consideration to the fact that the fraud complained of started in the trial
court, but ended in the United States district court. The fraud complained of
prevented Petitioner from fully developing the facts and thus, his ability to
fairly and completely litigate his habeas petition.
REASON FOR GRANTING THE WRIT
(a)

The Sixth Circuit opinion in this case conflicts with an analogous

opinion from a different panel of the Sixth Circuit Court of Appeals. See In re
Allen Marion, COA No. 18-1673 (Appendix F), and the Tenth Circuit Opinion in In
re Pickard, 681 F3d 1201 (10th Cir. 2012). In each case, the petitioner's argued
that the government withheld evidence during the habeas proceedings. In Pickard,
1.

the prosecutor withheld evidence at trial and during habeas review, and the
Court remanded the natter to the district court for further proceedings. This
Honorable Court should grant habeas relief or remand to the district court for
further fact finding. Pursuant to In re Davis, supra.
(b)

This Honorable Court should grant, vacate and remand to the district

court with instruction to investigate Petitioner's claim of fraud on the habeas
court. It is clearly established law that district

courts

retain ancillary

jurisdiction to address claims of fraud. See e.g • / Pacific v RR of Missouri v
Missouri Pacific Rv Co • f 111 U.S. 505, 521-522 (1884).
A victory on Petitioner's claim that the government deceived the habeas
court about the existence of DNA evidence will not automatically

invalidate

Petitioner's convictions. This is true because Petitioner has not been excluded
as a potential donor to the DMA found on the ski mask believed to have been worn
by the robber.
However, reopening the habeas proceedings will allow Petitioner to pursue
discovery pursuant to Habeas Rule

6,

regarding the DNA evidence, seek DNA

testing in state court due to new advances in science and seek other equitable
remedies including

appointment

of

an expert under Mich. Comp. Laws 777.15.

The Sixth Circuit previously granted authorization to file a successive
habeas petition upon a prima facie showing of Brady violation finding that new
discovery

of

co-defendant's

statement

could

be

used

to

impeach

other

witnesses. In re Baugh, 2018 US App LEXIS 35384. Likewise, the DNA evidence from
this case only indicates that the DNA profile is from an unknown donor. While
this evidence does not exonerate the

Petitioner,

it certainly could not be

deemed to incriminate the Petitioner.
A reasonable jury could conclude that the government could not prove beyond
a reasonable doubt that Petitioner was the bank robber since the DNA found in
2.

the mask was from an "unknown donor." Where the government's misconduct,as in
this case , prevented Petitioner from testing potentially exculpatory evidence
which might provide the information required to assert a factual predicate for a
second or successive habeas petition, it would be fundamentally unfair and
inconsistent

with equitable principles

of

habeas

jurisprudence

Petitioner's Rule 60(d) motion as the functional equivalent to

to

treat

a successive

petition, especially without an evidentiary hearing.
(c)

The Great Writ of Habeas Corpus is an equitable remedy, Schlup v Delo,

513 US 298, 319 (1995). The fraud complained of in this case originated in the
trial court. It was furthered in the habeas court by the Attorney

General's

Office and prevented the writ of habeas corpus from serving its purpose as a
guard against

extreme malfunctions

Richter, 562 U.S. 86,

in the

state

courts. See Harrington v

102 (2011). In Pickard. , supra, the Tenth Circuit held:

"The movant in a true Rule 60(b) motion is simply asserting that he did not
get a fair shot in the original §2255 proceeding because its integrity was
marred by flaw that must be repaired in further proceedings." Id. 681 F3d
at 1207.
Here Petitioner moved to stay the habeas proceedings so that he may pursue
DNA testing in the state court system. The respondent's claim that there was no
DNA to test prevented Petitioner from developing a factual predicate for his
claim

and

ultimately

denied

him due process of law, Thus, like Pickard.

Petitioner is simply asserting that he did not get a fair shot at habeas relief.
In Marshall v Holmes. 141 U.S. 589, 596 (1891), the court granted relief
from a judgment

that was obtained by the use of a forged letter. This fact

qualified

grave

as a

"miscarriage of justice"

sufficient

to justify

independent action because the defendant was completely prevented, by
from

presenting

any

defense

to the

complaint. Likewise,

the

fraud,

Petitioner

was

completely prevented from developing a factual basis to support his claims by
3.

the State's claim that there was no DNA evidence to test. Thus, Petitioner has
satisfied the grave miscarriage of justice prerequisite to merit departing from
the strict doctrine of res judicata. Therefore, the district court abused its
discretion in recharacterizing Petitioner's Rule 60(d) motion and declining to
exercise jurisdiction over his fraud upon the court claim.
I.

DID THE DISTRICT COURT ABDICATE ITS CLEAR LEGAL DUTY TO EXERCISE ANCILLARY
JURISDICTION OVER CLAIMS OF FRAUD ON THE COURT, ABUSE ITS DISCRETION BY
RECHARACTERIZING PETITIONER'S RULE 60(d) MOTION AS A SUCCESSIVE HABEAS
PETITION WITHOUT AN EVIDENTIARY HEARING, AND EFFECTIVELY SUSPENDED THE WRIT
OF HABEAS CORPUS CONTRARY TO US CONST AM ART 1, SEC. 9, CL 2.
The Applicable Law
Fed. R. Civ. P. 60(d) provides:

See

(d)

Other Fewer to Grant Relief. This rule does not limit a court's Power
to:

(1)

entertain an independent action to relieve a party from a judgment,
order, or proceeding;

(2)

grant relief under 28 U.S.C. §1655 to a
personally notified of the action; or

(3)

set aside a judgment for fraud on the court.

Workman v Bell, 227 F3d 331

(6th Cir. 2000),

defendant who was not

(Remanding fraud claim to

district court for evidentiary hearing).
It is well established that "[w]hen an independent action for relief from
judgment is brought in the same court that rendered judgment,the rendering court
has ancillary jurisdiction to entertain the action." Pacific RR of Missouri v
Missouri Pacific Rv Co., Ill US 505, 521-22 (1884).
Modern courts adhere to the precedent of the 1884 US Supreme Court ruling
in Pacific RR of Missouri, supra, see e.g., Charter Twp. of Muskegon v City of
Muskegon, 303 F3d 755, 762-63 (6th

Cir. 2002),

(holding

that

the federal

district court that entered judgment had ancillary jurisdiction to adjudicate
4.

independent action seeking to reopen that judgment/ accord/ Cresswell v Sullivan
& Cromwell, 922 F2d 60/ 70 (2d Cir. 1990).
Court's of justice retain the inherent

power to vacate a judgment upon

proof that a fraud has been perpetrated upon the court. Hazel-Atlas Glass Co. v
Hartford Empire Co., 322 US 238 (1944). This "historic power of equity to set
aside fraudulently begotten judgments," Hazel-Atlas, supra at 245, is necessary
to the integrity of the courts, for "tamping with the administration of justice
in [this] manner involves far more than an injury to a single litigant." It is a
wrong against the institutions set up to protect and safeguard the public."
Id. at

246. Moreover, a court is

investigation

in

order

to

duty

determine

bound
if

to

conduct

an

independent

a fraud had been committed. See

Hazel-Atlas, supra.
Petitioner is required to establish fraud by clear convincing evidence. See
lacks Indus, v McKechnie Vehicle Components USA,

Inc,

407

F. Supp 2d 834,

847 (ED Mich 2005), Burton v Zwicker & Assocs., 978 F Supp 2d 759, 778 (ED Ky,
2013), (The Court could not "find that Burton committed fraud on the court by
clear and convincing evidence").

Authority to Exercise Jurisdiction
As a general rule, "federal courts have a strict duty to

exercise the

jurisdiction that is conferred upon them by Congress." Quackembush v Allstate
Ins. Co •./ 517 US 706, 716 (1996), (citation omitted). This rule, however, is not
absolute. A

federal

court

exceptional circumstances,

may decline to exercise jurisdiction only
"where denying a

federal

forum would

under

serve

an

important countervailing interest. Id. at 716, citing Colorado River, [424 US]
at 813.
In Ouackenbush, this Court recognized that a federal court may "refrain
5.

from hearing cases
proceeding."

that

Id. 517

would

interfere

with

a

US at 716, or "with certain

pending
types

state criminal
of

state

civil

proceedings." Id. None of the grounds for refusing to exercise jurisdiction are
present here. In fact, Petitioner offered the district court undisputed proof
that the Assistant Attorney General deceived both Petitioner

and the habeas

court by denying the existence of DNA evidence from the mask allegedly worn by
the

perpetrator. Thus,

jurisdiction

over

this

the

district

fraud

court was

claim

proceedings, discovery and possibly

to

duty

bound

to

exercise

pave the way for further

habeas

stay of the proceedings. See Hazel-Atlas

Glass Co., supra, 322 US at 249-50.
A Claim Asserted Pursuant to Fed. R. Civ. P. 60(d)
does not Constitute Successive Petition
Petitioner filed an independent action under Fed. R. Civ. P. 60(d) alleging
that counsel for

the

evidence. At no time did

State

deceived the court about the existence of DNA

the court find that counsel for the Respondent did not

make the material misrepresentation. This case is analogous to In re Marion,
2018 US App LEXIS 27570, where petitioner alleged that the Assistant Attorney
General deceived the habeas court by withholding an affidavit. The Sixth Circuit
ruled that the district court reversibly erred by transferring the Rule (b)
motion for authorization to file a successive habeas petition. See also Burke v
United States, 2005 US Dist LEXIS 25908,
motion under Hazel-Atlas, and as

(noting that Petitioner's Rule 60(d)

such, is not a second or successive §2255

motion, but denied on the merits).
In denying habeas relief, the district court in this case, relied in part
on the Respondent's misrepresentation (lie) and concluded that "[t]here is no
indication that the prosecution intentionally or otherwise suppressed the DNA
evidence." Bradford v Romanowski, 2012 US Dist LEXIS 16665 at 26. The court also
6.

noted that [t]he detective indicated that he informed the trial court that the
ski mask was sent to the trace evidence unit for testing, at which time dog hair
was found in the ski-mask. He explained that no human hair was discovered in the
ski-mask, and that no DNA testing was requested on the mask because there was
nothing found in the ski mask that could be tested." Id. at*, 26. The district
court concluded, "with that, the Court concluded that petitioner is not entitled
to habeas relief with respect to his first habeas claim." Id. at* 26.
Because the district court relied on the fraud perpetrated by the Assistant
Attorney General, the Writ of Habeas Corpus was effectively suspended contrary
to US Const. Art 1, Sec 9, cl2. Petitioner could not fully and fairly litigate
his first claim for habeas relief (Brady violation) because of the reverberating
effect of the continued fraud from the State to the federal habeas court. Thus,
Petitioner has no other avenue for relief save an original habeas petition in
this Court pursuant to 28 U.S.C. 2241 (b).

7.

II.

DOES THE REVERBERATING EFFECT OF THE GOVERNMENT'S FRAUD ON THE STATE COURT
REGARDING THE LACK OF DNA EVIDENCE CONSTITUTE FRAUD AGAINST THE HABEAS
COURT WHERE THE STATE'S LACK OF DNA EVIDENCE CLAIM WAS ADVANCED TO THE
DISTRICT COURT AND RELIED ON/ IN PART, T'0 DENY HABEAS RELIEF?
In United States v Throckmorton, 98 US

recognized

that

"[wjhere

the

unsuccessful

61,

65-66

(1878),

the Court

party has been prevented

from

exhibiting fully his case, by fraud or deception • • • a new suit may be sustained
to set aside and annul the former judgment or decree, and open the case for a
new and fair hearing." In the years following Throckmorton, the Court decided
Hazel-Atlas Glass Co. v Hartford-Empire Co

322 US 238 (1944), which concluded

that a judgment could be attacked for intrinsic fraud resulting from corrupt
officers of the court. Id. at 244.
In order to establish fraud on the court, the Petitioner must establish
conduct: 1) on the part of an officer of the court; 2) that is directed to the
judicial machinery itself; 3) that is intentionally false, willfully blind to
the truth, or is in reckless disregard for the truth; 4) that is a positive
averment or a concealment when one is under a duty to disclose; 5) that deceives
the court. See Workman v Bell,

227

F3d 331, 336 (6th Cir. 2003), citation

omitted.

A. Independent Action
Petitioner filed an independent action alleging fraud in the United States
District Court, Eastern district, pursuant to Fed. R. Civ. P. 60(d). Petitioner
had pleaded sufficient facts as required by Fed.R. Civ. P. 8(a), and 9(b). The
district court was required to accept all well pleaded facts as true. Ashcrof v
Iqbal, 556 US 662, 678 (2009). In the absence of any rebuttal from the Attorney
General, Petitioner's

allegation of fraud should not have been transferred to

the Sixth Circuit without an evidentiary hearing.
8.

The

transfer of Petitioner’s

fraud claims

to the

Sixth Circuit

for

authorization to file a successive habeas petition was tantamount to a summary
dismissal. A summary dismissal of a fraud upon the court claim is a drastic
disposition that should not be
conclusively

show

that

used unless the pleading, files and records

petitioner would not be

to

entitled

relief. See

e.g. Walker v True, 399 F3d 315, 319 (6th Cir. 2005), (Vacating district court's
summary denial of §2255 relief because district court failed to "[ajssume the
facts pleaded in Walker's petition to be true.").
Petitioner respectfully submits that the district court committed a clear
legal error by transferring his fraud on the court claims to the Sixth Circuit
Court of Appeals under 28 U.S.C. §2244(b),without

conducting

an evidentiary

hearing. See Workman v Bell, supra, 227 F3d at 335 ("Case of fraud upon the
court are excepted from the requirements of section 2244."). Workman's fraud
claim was remanded for an evidentiary hearing.
The Tenth Circuit Court of Appeal remanded an analogous

case

to

the

district court after the petitioner's Rule 60(b) motion based on Brady/Giqlio
violations were treated as a second or

successive

§2255

claim. See

In re

Pickard, supra, Pickard argued that the government violated Brady/Giqlio, by
suppressing

the criminal and

informant

backgrounds

of

witnesses. Pickard,

furthered that the government failed to disclose files from agencies other than
the drug Enforcement Agency (DEA), while the prosecution claimed that no other
agency was involved.
Pickard argued that new evidence
evidence

at

indicated that the prosecutor withheld

trial and committed fraud during the §2255 proceedings because

federal agencies other than the DEA were involved in the investigation.
Petitioner in this case presented
General

facts and evidence that the Attorney

either intentionally or was willfully blind to the truth
9.

in

that

contrary to the trial prosecutor's claim that there was no DNA, there actually
is DNA evidence that has not inculpated the Petitioner in his case. (App F).
The Sixth Circuit has previously dealt with an analogous scenario in the
matter of

In re Marion#

supra,

which concluded

that

the

district

court

improperly transferred a motion for relief from judgment to the Sixth Circuit as
a successive habeas petition.
Likewise Petitioner also asserts that the district court was defrauded by
the government's suppression of DNA evidence

from

the state to the federal

courts.
B. Various federal district and Court of Appeals do not treat Rule 60 fraud
claims as successive habeas petitions
In Zakrzewskii v McDonough, 490 F3d 1264, 1266-67 (11th Cir. 2007), the
court held in a per curiam opinion that the district court erred in treating
petitioner's Rule 60(b) fraud claim as a second or successive habeas. In Pickard
supra petitioner's Rule 60(b) motion was remanded for further proceedings by the
Tenth Circuit, accord, In re Marion, supra.
In the case of In re Marion, 2018 US App LEXIS 27570, the Sixth Circuit
concluded that the district court
60(b)

motion

petition. Id. at

for

authorization

3. The

should not have transferred Marion's Rule
to

filed

a second or successive

habeas

Sixth Circuit remanded Marion' s fraud claim to the

district court for further proceedings.
In denying relief,the Sixth Circuit issued a lengthy opinion which appears
to

address the merits of Petitioner's claims in the first instance. Such a

practice is akin to deciding an appeal without jurisdiction, a practice that has
been frowned upon by this Honorable Court. See e.g • / Miller-El v Cokrell. 537 US
322, 336-37 (2003).
A prisoner seeking relief from judgment based on allegations of fraud must
10.

make a clear and

convincing showing of facts and evidence to avoid summary

dismissal, or in this case an unnecessary transfer to the Sixth Circuit for
authorization to file a successive habeas petition.
Both the district court and the Sixth Circuit recognized that Petitioner
argued that the Assistant Attorney General
court.

See

In re Bradford,

committed fraud upon the habeas

2020 OS App LEXIS

23764 at*7. Neither

court

questioned the validity of Petitioner's claims. Thus, a clear and convincing
showing of fraud has been made.
For over fifteen years the prosecution and Michigan State Police concealed
the existence of DNA evidence that was recovered from a ski-mask allegedly worn
by the perpetrator of the crimes for which Petitioner had been convicted. The
trial prosecutor argued that Petitioner’s testimony is not credible because he
lacks physical (DNA)

evidence to support his claims. (Trial Trans. Vol. Ill,

pgs. 17-20; closing arguments).
The Assistant Attorney General either intentionally or with a willful blind
eye to the truth, misled the district court and Petitioner by arguing during
habeas review that ere was no DNA

evidence

to support Petitioner's Brady,

claim. This was a misrepresentation, by an officer of the

court,

that

was

intentionally false or in reckless disregard of the truth, that was effectively
a concealment of DNA evidence, that the Government was duty bound to disclose,
which deceived the district court in its ruling. Petitioner respectfully submits
that this is the classic case of "fraud upon the court" for which rule 60(d)
relief was appropriate.
It

is Petitioner's position that State's attorney's

conduct

not

only

deceived the court, but effectively suspended the writ of habeas corpus contrary
to US Const Art 1, Sec 9, cl 2. For this reason, Petitioner seeks a writ of
habeas corpus from this Court because he is being detained in violation of the
11.

)

14th amendment and Brady v Maryland, supra.
The inconsistent dispositions reached by the various federal district and
appellate

courts regarding Rule 60(d) motion or proceedings

produce

unjust

results nationwide. Thus, this Honorable Court should intervene in the interest
of justice and grant habeas relief. 28 U.S.C 2241(b). In

re

Davis,

supra,

Felker, supra.

RELIEF REQUESTED
WHEREFORE

Petitioner

respectfully

request

that

this Honorable Court

exercise its Supervisory Power and grant habeas relief, remanded this matter to
the

district

court

with

instructions

to hold an evidentiary hearing

in

accordance with In re Davis, supra.

VERIFICATION
I have the above and I solemnly affirm under the penalty of perjury that
the same is true to the best of my knowledge,
§1746.

Date:

12.

information and belief. 28 USC

